No. 20-

 

IN THE SUPREME COURT OF THE UNITED STATES

 

SONYA PORTER,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF
PENNSYLVANIA

 

CERTIFICATE OF SERVICE

 

I, Steven A. Tehovnik, Assistant Public Defender, Allegheny County Office of
the Public Defender and Appellate Counsel of Record, hereby certify that on this 7
day of October, 2020, I personally served a physical copy of the Petition for Writ of
Certiorari and Motion for Leave to Proceed In Forma Pauperis on the following
counsel:
FRANCESCO L. NEPA
Assistant District Attorney
Allegheny County Office of the District Attorney
401 Allegheny County Courthouse
Pittsburgh, PA 15219-2489
Counsel of Record

I further certify that all parties required to be served have been served.

Respectfully Submitted:
Ha.
STEVEN A. TEHOVNIK BRANDON P. GING
Assistant Public Defender Deputy — Appeals Division

*Counsel of Record

ALLEGHENY COUNTY OFFICE OF THE PUBLIC DEFENDER
400 County Office Building, 542 Forbes Avenue
Pittsburgh, PA 15219
(412) 350-2473
